4
|

2311 Douglas Street CA

* E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B aa ans contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1678

DANIEL Z. CROWE; LAWRENCE K. PETERSON;
and OREGON CIVIL LIBERTIES ATTORNEYS,
an Oregon nonprofit corporation,
Petitioners,

v.

OREGON STATE BAR, a Public Corporation, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the SUPPLEMENTAL BRIEF
FOR PETITIONERS in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 2556 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL fhe notice. | of Nebraska & 2 4 fe
RENEE J. fhe notice. | ( Duda
My Comm. Exp. September 5, 2023

Notary Public Affiant
